     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




August 18, 2010

Report Number: A-07-09-04146

Andrew Allison, Ph.D.
Executive Director
Kansas Health Policy Authority
Room 900-N Landon State Office Building
Topeka, KS 66612

Dear Dr. Allison:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Selected Claims Included in the Kansas Medicaid
Family Planning Program. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-09-04146 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Andrew Allison, Ph.D.

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        REVIEW OF
SELECTED CLAIMS INCLUDED IN
   THE KANSAS MEDICAID
FAMILY PLANNING PROGRAM




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-07-09-04146
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Kansas, the Kansas Health Policy Authority
(State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as Federal financial participation (FFP) or alternatively as the Federal share, is
determined by the Federal medical assistance percentage (FMAP). The State agency’s FMAP
ranged from 59.43 percent to 68.31 percent for claims paid from July 1, 2005, through
June 30, 2009.

Federal requirements also make provisions for various specified services to be reimbursed at
higher (that is, enhanced) rates of FFP. Section 1903(a)(5) of the Act and 42 CFR
§§ 433.10(c)(1) and 433.15(b)(2) authorize reimbursement at an enhanced 90-percent FFP rate
for family planning services. Section 4270 of the CMS State Medicaid Manual defines family
planning services as those that prevent or delay pregnancy or otherwise control family size.

For State fiscal years 2006 through 2009, the State agency was reimbursed $19,997,484
($17,997,736 Federal share) for a variety of family planning services at the enhanced 90-percent
FFP rate. Of this amount, we separately reviewed certain family planning costs totaling
$13,977,885 ($12,580,097 Federal share) for specifically identified child delivery and newborn
claims (A-07-10-04156), family planning pharmacy claims (A-07-10-04157), and family
planning sterilization services (A-07-10-04162). Thus, this review covers the remaining
$6,019,599 ($5,417,639 Federal share) for selected family planning claims, for which the State
agency claimed reimbursement at the family planning enhanced 90-percent FFP rate.

OBJECTIVE

Our objective was to determine whether the $6,019,599 ($5,417,639 Federal share) in selected
family planning claims submitted by providers and claimed by the State agency at the enhanced
90-percent FFP rate from July 1, 2005, through June 30, 2009, were allowable pursuant to
Federal requirements.

SUMMARY OF FINDINGS

Not all of the selected family planning claims submitted by providers and claimed by the State
agency at the enhanced 90-percent FFP rate from July 1, 2005, through June 30, 2009, were
allowable pursuant to Federal requirements. Of the 100 claims in our statistical sample, 51
qualified as family planning services and could be claimed for reimbursement at the enhanced

                                                i
90-percent FFP rate. However, the remaining 49 claims in our sample totaling $42,274 (Federal
share) were not allowable for reimbursement at the enhanced 90-percent FFP rate because the
services in question could not be claimed as family planning services pursuant to Federal
requirements (1 claim had two types of errors). Specifically, of the 49 remaining claims, the
State agency received unallowable reimbursement for:

    •   42 claims unrelated to family planning,

    •   6 claims that did not have adequate informed consent for sterilization (these claims were
        unrelated to those made for the sterilization services that we are reviewing separately
        (A-07-10-04162)), and

    •   2 claims that lacked sufficient supporting documentation.

Based on the results of our sample, we estimated that the State agency received $589,355 in
unallowable Federal reimbursement. Of the 49 claims for which the State agency received
unallowable reimbursement, 42 could have been claimed for reimbursement at the standard
FMAP rate that was applicable at the time the claim was paid. For those 42 claims, we
calculated the correct Federal reimbursement using the standard FMAP rates. The remaining
7 claims containing errors were unallowable for Federal reimbursement.

These errors occurred because the Medicaid Management Information System’s (MMIS) edits
did not always correctly identify claims for reimbursement at the enhanced 90-percent FFP rate
and because Medicaid guidelines regarding informed consent for sterilization were not always
followed.

RECOMMENDATIONS

We recommend that the State agency:

   •    refund $589,355 to the Federal Government; and

   •    strengthen internal controls to ensure that family planning services submitted for Federal
        reimbursement are accurate by:

           o ensuring that MMIS edits appropriately identify claims that are ineligible for
             reimbursement at the enhanced 90-percent FFP rate and

           o adhering to the Medicaid guidelines regarding informed consent for sterilization.




                                                  ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred that a refund is due to the
Federal Government and stated that it would work with CMS “… to determine the timing and
amount of that refund.” The State agency also concurred with our second recommendation and
described corrective actions, in the form of strengthened internal controls, that it had
implemented or planned to implement. In addition, the State agency said that the strengthened
internal controls that it had implemented would more appropriately address a portion of our
second recommendation that had appeared in our draft report.

The State agency’s comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we modified our final report by removing the
portion of our second recommendation that had appeared in the draft report and about which the
State agency had expressed concerns. The corrective actions that the State agency described in
its comments should, when fully implemented, adequately address our findings, but we did not
verify those corrective actions.




                                               iii
                                                 TABLE OF CONTENTS
                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            State of Kansas Medicaid Program .................................................................. 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Medicaid Management Information System .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 3
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

      UNALLOWABLE FAMILY PLANNING SERVICES ................................................. 5
            Services Unrelated to Family Planning............................................................ 5
            Inadequate Informed Consent .......................................................................... 5
            Lack of Documentation.................................................................................... 6

      CAUSES OF THE OVERPAYMENTS .......................................................................... 6

      UNALLOWABLE FAMILY PLANNING CLAIMS ..................................................... 6

      RECOMMENDATIONS ................................................................................................. 7

      STATE AGENCY COMMENTS .................................................................................... 7

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SUMMARY OF THE STATISTICAL SAMPLE – STRATA 1

          D: SUMMARY OF THE STATISTICAL SAMPLE – STRATA 2

          E: STATE AGENCY COMMENTS



                                                                   iv
                                    INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

State of Kansas Medicaid Program

In Kansas, the Kansas Health Policy Authority (State agency) is responsible for administering
the Medicaid program. The State agency contracts with HP Enterprise Services (formerly
Electronic Data Systems) to maintain its Medicaid Management Information System (MMIS),
a computerized payment and information reporting system that processes and pays Medicaid
claims.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as Federal financial participation (FFP) or alternatively as the Federal share, is
determined by the Federal medical assistance percentage (FMAP). The State agency’s FMAP
ranged from 59.43 percent to 68.31 percent for claims paid from July 1, 2005, through
June 30, 2009. Federal requirements also make provisions for various specified services to be
reimbursed at higher (that is, enhanced) rates of FFP.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and
supplies to individuals of childbearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize reimbursement at an enhanced 90-percent FFP rate for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) defines family planning
services as those that prevent or delay pregnancy or otherwise control family size. In
addition, this provision of the manual generally permits an enhanced 90-percent FFP rate for
the following items and services: counseling services and patient education; examination and
treatment by medical professionals pursuant to States’ requirements; devices to prevent
conception; and infertility services, including sterilization reversals. The manual further
specifies that an abortion may not be claimed as a family planning service. Pursuant to the
provisions of the manual, only items and procedures clearly furnished or provided for family
planning purposes may be claimed at the enhanced 90-percent FFP rate.


                                               1
CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency
via Medicaid State Operations Letter 91-9. The guide states that any procedure provided to a
woman known to be pregnant may not be considered a family planning service reimbursable
at the enhanced 90-percent FFP rate.

The State agency’s requirements define family planning services as any medically approved
treatment, counseling, drugs, supplies, or devices which are prescribed, or furnished by a
provider, to individuals of child-bearing age for purposes of enabling such individuals to
freely determine the number and spacing of their children.

For State fiscal years 2006 through 2009, the State agency was reimbursed $19,997,484
($17,997,736 Federal share) for a variety of family planning services at the enhanced
90-percent FFP rate. Of this amount, we separately reviewed certain family planning costs
totaling $13,977,885 ($12,580,097 Federal share) for specifically identified child delivery and
newborn claims (A-07-10-04156), family planning pharmacy claims (A-07-10-04157), and
family planning sterilization services (A-07-10-04162). Thus, this review covers the
remaining $6,019,599 ($5,417,639 Federal share) for selected family planning claims, for
which the State agency claimed reimbursement at the family planning enhanced 90-percent
FFP rate.

Medicaid Management Information System

Providers enrolled in the Medicaid program submit claims for payment to the State agency’s
MMIS, which is maintained by the State agency’s fiscal agent. The State agency furnishes to
providers an MMIS provider manual that contains instructions for the proper completion and
submission of claims. The provider must complete certain fields on the electronic claim form
to indicate the type of service provided.

The MMIS uses a variety of indicators on the electronic claim form to identify family
planning services that are eligible for reimbursement at the enhanced 90-percent FFP rate.
In addition, the State agency’s MMIS uses edits and logic to verify that the provider correctly
selected the appropriate indicator. If these edits revealed that the provider selected a family
planning indicator for services unrelated to family planning services, the claim was returned
to the provider for correction and resubmission. If the MMIS logic verified that the provider
correctly selected the appropriate indicator, those services were reported to CMS for the
appropriate amount of Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the $6,019,599 ($5,417,639 Federal share) in selected
family planning claims submitted by providers and claimed by the State agency at the
enhanced 90-percent FFP rate from July 1, 2005, through June 30, 2009, were allowable
pursuant to Federal requirements.



                                                2
Scope

We reviewed $6,019,599 ($5,417,639 Federal share) of State agency claims related to family
planning services in Kansas from July 1, 2005, through June 30, 2009. We did not review the
overall internal control structure of the State agency or the Medicaid program. Rather, we
reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the State agency’s offices in Topeka, Kansas, from July 2009
through February 2010.

Methodology

To accomplish our objective, we did the following:

    •   We reviewed Federal laws, regulations, guidance and the State plan.

    •   We held discussions with CMS officials and acquired an understanding of CMS
        requirements and guidance furnished to State agency officials concerning Medicaid
        family planning claims.

    •   We held discussions with State agency officials to ascertain State agency policies,
        procedures, and guidance for claiming Medicaid reimbursement for family planning
        services.

    •   We reconciled current period and prior period family planning claims reported on the
        standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program (CMS-64 report), 1 back to the State agency’s supporting
        documentation.

    •   We obtained a database of paid claims for the Family Planning program that were
        submitted by Medicaid providers in the State of Kansas for the period July 1, 2005,
        through June 30, 2009. The database contained 211,496 claim lines totaling
        $19,993,630. The Medicaid claim lines were extracted from the paid claims’ database
        maintained by the State agency’s fiscal agent. We then removed (1) claims for child
        delivery and newborn inpatient services, and for family planning prescription drugs
        because we reviewed these in separate reports, and (2) zero-paid claims which taken
        together left 48,264 claims lines totaling $6,019,599 remaining.

    •   We selected a stratified random sample of 100 claims from the 48,264 Family
        Planning Program claims (see Appendix A).

    •   We obtained and reviewed the supporting documentation for each sampled claim to
        determine the allowability of the claim.

1
  The CMS-64 report summarizes actual Medicaid expenditures for each quarter and is used by CMS to
reimburse States for the Federal share of Medicaid expenditures.

                                                      3
    •    We provided the results of our review to State agency officials on March 17, 2010. In
         addition, we provided the State agency officials with the medical documents related to
         the 49 claims not eligible for the 90-percent FFP rate.

Appendixes A and B contain the details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Not all of the selected family planning claims submitted by providers and claimed by the State
agency at the enhanced 90-percent FFP rate from July 1, 2005, through June 30, 2009, were
allowable pursuant to Federal requirements. Of the 100 claims in our sample, 51 qualified as
family planning services and could be claimed for reimbursement at the enhanced 90-percent
FFP rate. However, the remaining 49 claims in our sample totaling $42,274 (Federal share)
were not allowable for reimbursement at the enhanced 90-percent FFP rate because the
services in question could not be claimed as family planning services pursuant to Federal
requirements (1 claim had two types of errors). Specifically, of the 49 remaining claims, the
State agency received unallowable reimbursement for:

     •   42 claims unrelated to family planning,
     •   6 claims that did not have adequate informed consent for sterilization, 2 and
     •   2 claims that lacked sufficient supporting documentation.

Based on the results of our sample, we estimated that the State agency received $589,355 in
unallowable Federal reimbursement. Of the 49 claims for which the State agency received
unallowable reimbursement, 42 could have been claimed for reimbursement at the standard
FMAP rate that was applicable at the time the claim was paid. For those 42 claims, we
calculated the correct Federal reimbursement using the standard FMAP rates. The remaining
7 claims containing errors were unallowable for Federal reimbursement.

These errors occurred because the MMIS’s edits did not always correctly identify claims for
reimbursement at the enhanced 90-percent FFP rate and because Medicaid guidelines
regarding informed consent for sterilization were not always followed.




2
 These claims were unrelated to those made for the sterilization services that we are reviewing separately
(A-07-10-04162).

                                                         4
UNALLOWABLE FAMILY PLANNING SERVICES

Services Unrelated to Family Planning

Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize
enhanced 90-percent Federal reimbursement for family planning services. Section 4270 of
the manual defines family planning services as those that prevent or delay pregnancy or
otherwise control family size. The manual states that only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the enhanced
90-percent FFP rate.

Contrary to these Federal requirements and guidelines, the State agency improperly claimed
Federal reimbursement for costs associated with 42 services unrelated to family planning that
were not allowable for reimbursement at the enhanced 90-percent FFP rate. The
documentation contained in the medical files revealed that provider services unrelated to
family planning had been rendered in these cases. For example, some of the unrelated
services were for infection, obstetric care, echocardiogram, and appendectomy (refer to
Appendixes C and D for the full list of unallowable services identified). Therefore, the costs
related to the 42 claims were not allowable for reimbursement at the Family Planning
Program’s enhanced 90-percent FFP rate.

Inadequate Informed Consent

42 CFR § 441.253(d) requires that at least 30 days, but not more than 180 days, have passed
between the date of informed consent and the date of the sterilization, except in the case of
premature delivery or emergency abdominal surgery. These Federal regulations also state that
an individual may consent to be sterilized at the time of a premature delivery if at least 72
hours have passed since she gave informed consent for the sterilization. In addition, the
informed consent must have been given at least 30 days before the expected date of delivery.
In addition, 42 CFR § 441.258(b) requires the consent form to be signed and dated by (1) the
individual to be sterilized; (2) the interpreter, if one is provided; (3) the person who obtained
the consent; and (4) the physician who performed the sterilization procedure. Section 8340 of
the Kansas Medicaid Hospital Manual states that if the informed consent guidelines are not
completely followed, the claim will be denied. These guidelines require that all data fields be
completed and that the physician’s statement on the sterilization consent form be signed and
dated no more than two days prior to the surgery.

Contrary to these Federal requirements and guidelines, the State agency improperly claimed
Federal reimbursement for six claims that were not allowable for reimbursement and should
be denied. 3 Specifically,

    •    for two claims, informed consent was given on the same day as the sterilization
         procedure;

3
  Although these six claims were for sterilization procedures, our finding in this report focuses on the issue of
informed consent. Accordingly, neither these six claims nor the costs associated with them bear upon the claims
for the sterilization services that we are reviewing separately (A-07-10-04162).

                                                         5
    •    for one claim, the provider was not able to furnish us with a consent for sterilization;

    •    for one claim, the physician did not sign the consent form;

    •    for one claim, the physician did not date the consent form; and

    •    for one claim, the physician signed the consent form more than two days before the
         procedure.

Therefore, the costs related to the six claims were not allowable for reimbursement and should
have been denied.

Lack of Documentation

Section 1902(a)(27) of the Act and 42 CFR §§ 431.17 and 433.32 require that services
claimed for Federal Medicaid reimbursement be documented.

Contrary to these Federal requirements, the State agency improperly claimed Federal
reimbursement for two claims that were not allowable for reimbursement and should have
been denied because the providers could not provide documentation to support the services
billed. Therefore, the costs related to the two claims were not allowable for reimbursement.

CAUSES OF THE OVERPAYMENTS

The MMIS’s edits did not always correctly identify claims for reimbursement at the enhanced
90-percent FFP rate. To classify family planning claims, the State agency’s MMIS has edits
and logic to identify family planning claims. However, the logic and edits used by the State
agency’s MMIS were not sufficient to correctly identify family planning claims.

UNALLOWABLE FAMILY PLANNING CLAIMS

Our stratified random sample found 49 claims with errors totaling $42,274 (Federal share) of
unallowable Federal reimbursement. Of these claims, 42 could, however, have been claimed
for reimbursement at the standard FMAP rate that was applicable at the time the claim was
paid. For those 42 claims, we calculated the correct Federal reimbursement using the standard
FMAP rates. The remaining 7 claims containing errors were unallowable for Federal
reimbursement. 4 Based on the results of our statistical sample, we estimated that the State
agency received $589,355 in unallowable Federal reimbursement.

4
  One claim had two types of errors and thus could be included as an error in both categories of reimbursement
allowability mentioned just above. The first error involved the fact that part of the claim was for a sterilization
procedure; this part of the claim was unallowable for Federal reimbursement. The second error involved the fact
that a service was claimed as a family planning service at the enhanced 90-percent FFP rate but was actually
allowable for Federal reimbursement only at the standard FMAP rate. (See sample item 4 in Appendix C.) For
purposes of determining the questioned costs, this claim was included with the 42 claims that could have
received reimbursement at the standard FMAP rate and was not included with the 7 claims for which Federal
reimbursement was entirely unallowable.

                                                          6
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $589,355 to the Federal Government; and

   •   strengthen internal controls to ensure that family planning services submitted for
       Federal reimbursement are accurate by:

           o ensuring that MMIS edits appropriately identify claims that are ineligible for
             reimbursement at the enhanced 90-percent FFP rate and

           o adhering to the Medicaid guidelines regarding informed consent for
             sterilization.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred that a refund is due to the
Federal Government and stated that it would work with CMS “… to determine the timing and
amount of that refund.” The State agency also concurred with our second recommendation
and described corrective actions, in the form of strengthened internal controls, that it had
implemented or planned to implement. Specifically, the State agency said that it had
implemented policy changes to correct the family planning claims process within the MMIS
and that it would update policy requirements regarding Medicaid informed consent guidelines
for sterilization.

In addition, the State agency provided comments regarding a portion of the second
recommendation as it appeared in our draft report. The State agency said that the
strengthened internal controls that it had implemented would correct the MMIS edits and
ensure that services unrelated to family planning are not claimed at the 90-percent FFP rate.
The State agency expressed concern that that portion of our second recommendation could
add “… undue burden on providers …” and create “… a potential source of error in the state
funding process.” The State agency added that the MMIS-based methodology that formed the
basis of its corrective actions would more appropriately address that portion of our second
recommendation and would offer “… the best mix of accuracy and efficiency in the family
planning claims’ process.”

The State agency’s comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we modified our final report by removing the
portion of our second recommendation that had appeared in the draft report and about which
the State agency had expressed concerns. The corrective actions that the State agency
described in its comments should, when fully implemented, adequately address our findings,
but we did not verify those corrective actions.

                                                7
APPENDIXES
                                                                                     Page 1 of2

              APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consists of paid family planning claims for which the Kansas Health Policy
Authority (State agency) received reimbursement at the enhanced 90-percent Federal financial
participation (FFP) rate for services furnished to Medicaid beneficiaries and claimed during
the period July 1, 2005, through June 30, 2009.

SAMPLING FRAME

We obtained a database of paid claims for the Kansas Medicaid Family Planning Program that
were submitted by the Medicaid providers of the State of Kansas, for the period July 1, 2005,
through June 30, 2009. The database contained 211,496 claim lines totaling $19,993,630.
The Medicaid claim lines were extracted from the paid claims' database maintained by the
State agency's fiscal agent.

We extracted 3,633 inpatient claim lines for child delivery and newborn inpatient services,
and 133,810 prescription drug claim lines, and created a separate database. We reviewed
claims associated with these services in separate audits. The remaining 74,053 claim lines
were reduced by 4,237 zero-paid claim lines and 2,114 voided claim lines, leaving 67,675
claim lines, which we converted to 48,291 claims. We removed 27 claims that were less than
zero, leaving 48,264 claims totaling $6,019,599, of which the Federal share is $5,417,639.

The claims were extracted by our advanced audit techniques staff from the State agency's
Medicaid claim files provided to us by the State agency's fiscal agent from the Medicaid
Management Information System.

SAMPLE UNIT

Sampling unit was a paid claim for Medicaid Family Planning services.

SAMPLE DESIGN

We used a stratified random sample with each stratum defined by paid amounts as shown
below:

       Stratum One: $1,000 and more - 230 paid claims 

       Stratum Two: $999.99 and less - 48,034 paid claims. 


SAMPLE SIZE

One hundred sample units (paid claims) were selected for review.
                                                                                  Page20f2

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software eRAT -STA TS).

ESTIMATION METHODOLOGY

We used RAT -ST ATS to estimate the unallowable payments for Medicaid family planning
serVIces.
                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                        Sample Results

                                                                                     Value of
                            Value of                     Value of     Number of     Incorrectly
                             Frame         Sample         Sample      Incorrectly      Paid
 Stratum      Frame Size
                            (Federal        Size         (Federal        Paid         Claims
                             Share)                       Share)        Claims       (Federal
                                                                                      Share)
Paid claims
of $1,000            230     $928,711             30      $116,211            30       $40,797
and more
Paid claims
of $999.99        48,034    4,488,928             70          6,510           19          1,477
and less
  Totals          48,264   $5,417,639            100      $122,721            49       $42,274


                       Estimated Value of Incorrectly Paid Claims
                   (Limits Calculated for a 90 Percent Confidence Interval)

                              Point Estimate:       $1,326,509
                              Lower Limit:            $589,355
                              Upper Limit:          $2,063,663
                                                                                                    Page 1 of2

           APPENDIX C: SUMMARY OF THE STATISTICAL SAMPLE - STRATA 1 



                                                 PROCEDURE 
                               IDENTIFIED
                                   QUALIFY AS 
 NOT RELATED 
 INADEQUATE 
               SERVICE BASED           AMOUNT 

SAMPLE 
                            FAMILY 
     TO FAMILY 
   INFORMED 
               UPON ADMITTING              OF 

 ITEM 
        CMS64 i ICN 2 
     PLANNING? 
 PLANNING 
       CONSENT 
                  DIAGNOSIS              CLAIM 

   1
          2006215011767 
           No             X
                             JOINT PAIN-PELVIS         $5,443.58 

                                                                                       SUPERVIS OTH
   2
          6006293006332 
           No             X
                             NORMALPREG                $1,326.89 

                                                                                       DELIVER-SINGLE
   3
          6006299003198 
           No             X
                             LIVEBORN                  $1,326.89
  43 
         6006025005504 
           No             X
                             HYPERTENSION               $492.65
   4
          6006025005504 
           No                                X
          STERILIZATION              $594.63
                                                                                       DELIVER-SINGLE
   5
          6006333005781 
           No             X
                             LIVEBORN                  $1,326.89
                                                                                       CENTRAL NERVOUS
                                                                                       SYSTEM
                                                                                       COMPLICATOIN IN
                                                                                       DELIVERY ­
   6
          2006361020396 
           No             X
                             ANTEPARTUM                $5,095.90
                                                                                       DELIVER-SINGLE
   7
          6006333005778 
           No             X
                             LIVEBORN                  $1,496.23
                                                                                       DELIVER-SINGLE
   8
          6006159006369 
           No             X
                             LIVEBORN                  $1,326.89
                                                                                       DELIVER-SINGLE
   9
          6006125007432 
           No             X
                             LIVEBORN                  $1,326.89
                                                                                       DELIVER-SINGLE
  10 
         6007085000478 
           No             X
                             LIVEBORN                  $1,326.89
                                                                                       DELIVER-TWINS
  11 
         6006172000428 
           No             X
                             BOTH LIVE                 $1,496.23
                                                                                       ABDMNAL PAIN
  12 
         5207064006088 
           No             X
                             UNSPCF SITE               $25,129.83
  13 
         1106271002482 
           No                                X
          STERILIZATION             $2,854.87
                                                                                       DELIVER-SINGLE
  14 
         6006125006875 
           No             X
                             LIVEBORN                  $1,326.89
  15 
         2008330010208 
           No             X
                             OV ARIAN CYST             $5,694.20
                                                                                       DELIVER-SINGLE
  16 
         6006349006221 
           No             X
                             LIVEBORN                  $1,326.89
                                                                                       ABDMNAL PAIN
  17 
         2006164000130 
           No             X
                             UNSPCF SITE               $5,515.17




           I The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
           Program (CMS64), summarizes actual Medicaid expenditures for each quarter and is used by CMS to
           reimburse States for the Federal share of Medicaid expenditures.

           2   Internal Control Number

           3   Sample item 4 contained two errors.
                                                                           Page2of2

                                       PROCEDURE                    IDENTIFIED
                         QUALIFY AS   NOT RELATED   INADEQUATE    SERVICE BASED       AMOUNT
SAMPLE                    FAMILY       TO FAMILY     INFORMED    UPON ADMITTING          OF
 ITEM     CMS641CN       PLANNING?      PLANNING      CONSENT       DIAGNOSIS          CLAIM

                                                                 ABDMNAL PAIN
  18     6006114002829      No            X                      UNSPCF SITE          $4,448.91

                                                                 CELLULITIS OF
  19     2006262019626       No           X                      FOOT                 $5,095.90
                                                                 DELIVER-SINGLE
  20     6006099000333      No            X                      LIVEBORN             $1,326.89
                                                                 DELIVER-SINGLE
  21     6006195005676      No            X                      LIVEBORN             $1,496.23
                                                                 SUPERVIS OTH
  22     6006293006370       No           X                      NORMAL PREG          $1,326.89
  23     2006156004628       No           X                      OV ARIAN CYST        $5,928.02
                                                                 DELIVER-SINGLE
  24     6006349006252       No           X                      LIVEBORN             $1,326.89
  25     1106331005579       No                         X        STERILIZA TION       $2,843.55
  26     2007142022014       No           X                      PAIN IN LIMB          $815.39
                                                                 NAUSEA WITH
  27     2006354014749       No           X                      VOMITING             $20,681.41
                                                                 DELIVER-SINGLE
  28     6006099000332       No           X                      LIVEBORN             $1,496.23
                                                                 ULCER OTHER PART
  29     2006342031617       No           X                      OF FOOT              $1,040.80
                                                                 SHORTNESS OF
  30     2009083009714       No           X                      BREATH               $16,867.72
                                                                                                       Page 1 of 4


              APPENDIX D: SUMMARY OF THE STATISTICAL SAMPLE - STRATA 2 


                                               PROCEDURE                           UNABLE
                                                   NOT                               TO             IDENTIFIED
                                 QUALIFY AS    RELATED TO       INADEQUATE        PROVIDE         SERVICE BASED      AMOUNT 

SAMPLE 
                           FAMILY        FAMILY          INFORMED         MEDICAL        UPON ADMITTING         OF 

 ITEM 
      CMS64 1 ICN 2       PLANNING?      PLANNING          CONSENT         RECORDS           DIAGNOSIS         CLAIM 


                                                                                               NECROT
   1
      1005151002447              No             X                                         ENTEROCOLITIS           $136.48
                                                                                               ARTIFICIAL
                                                                                               RUPTURE
                                                                                               MEMBRANE ­
   2
      1005151003 109             No                               X                       DELIVERY                $378.58
                                                                                               ALLOWABLE
                                                                                               F AMIL Y PLANNING
   3
       1005152001144             Yes                                                      SERVICE                  $40.50
   4
      1005158003431              No                               X                       STERILIZATION           $607.09
                                                                                               ALLOWABLE
                                                                                               FAMIL Y PLANNING
   5       1005166002493              Yes                                                      SERVICE                  $10.13
                                                                                               CONTRACEPTIVE
   6       1005175001263              No                                              X        MAN GMT                   $7.43
   7       1005175001665              No                                              X        CERVICALGIA               $7.43
                                                                                               ECTOPIC
   8       5205242000001              No             X                                         PREGNANCY               $170.60
                                                                                               ALLOWABLE
                                                                                               FAMIL Y PLANNING
   9       1005175002274              Yes                                                      SERVICE                  $46.68
                                                                                               ALLOWABLE
                                                                                               FAMILY PLANNING
  10       1005175002453              Yes                                                      SERVICE                  $46.68
  11       1005175002529              No             X                                         OV ARIAN CYST            $52.30
                                                                                               ALLOWABLE
                                                                                               FAMIL Y PLANNING
  12       1005175002767              Yes                                                      SERVICE                  $54.13
                                                                                               ALLOWABLE
                                                                                               FAMIL Y PLANNING
  13       1005175002771              Yes                                                      SERVICE                  $17.00
                                                                                               ALLOWABLE
                                                                                               FAMILY PLANNING
  14       1005175002773              Yes                                                      SERVICE                  $24.43
                                                                                               ALLOWABLE
                                                                                               FAMILY PLANNING
  15       1005178001407              Yes                                                      SERVICE                  $54.00
                                                                                               CONTRACEPT PILL
  16       1005178001408              No             X                                         SURVEILLANCE             $37.43
                                                                                               ALLOWABLE
                                                                                               FAMILY PLANNING
  17       1005178001409              Yes                                                      SERVICE                  $50.00



              1 The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
              Program (CMS64), summarizes actual Medicaid expenditures for each quarter and is used by CMS to
              reimburse States for the Federal share of Medicaid expenditures.

              2   Internal Control Number
                                                                                         Page 2 of 4


                                                PROCEDURE                 UNABLE
                                                   NOT                      TO          IDENTIFIED
                               QUALIFY AS       RELATED TO   INADEQUATE   PROVIDE     SERVICE BASED     AMOUNT
SAMPLE                           FAMILY           FAMILY      INFORMED    MEDICAL    UPON ADMITTING        OF
 ITEM      CMS64 i lCN 2       PLANNING?         PLANNING      CONSENT    RECORDS       DIAGNOSIS        CLAIM
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  18     1005178001430              Yes                                             SERVICE                $52.80
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  19     1005178001463              Yes                                             SERVICE                $82.44
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  20     1005178001791              Yes                                             SERVICE                $52.30
                                                                                    ALLOWABLE
                                                                                    FAMIL Y PLANNING
  21     1005178001797              Yes                                             SERVICE                $40.00
  22     5205242000002              No                X                             APPENDICITIS          $168.30
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  23     1005178003203              Yes                                             SERVICE                $52.80
  24     5205242000003              No                X                             OV ARIAN CYST         $238.84
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  25     1005179001195              Yes                                             SERVICE                $3 I.70
                                                                                    MILD DYSPLASIA OF
  26     5205242000005              No                X                             CERVIX                $119.42
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  27     1005179002166              Yes                                             SERVICE                $23.34
                                                                                    ALLOWABLE
                                                                                    FAMIL Y PLANNING
  28     1005179003759              Yes                                             SERVICE                $59.44
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  29     1005179003805              Yes                                             SERVICE               $43 I. 09
  30     1005179004043              No                           X                  STERILIZATI ON         $17.00
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  31     1005179004049              Yes                                             SERVICE                $59.44
  32     5205242000006              No                X                             UTERINE PROLAPSE      $238.84
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  33     1005180001283              Yes                                             SERVICE                 $7.43
                                                                                    PREGNA TE STATE
  343    1005180001336              No                X                             INCIDENTAL            $106.68
                                                                                    ALLOWABLE
                                                                                    FAMIL Y PLANNING
  34     1005180001336              Yes                                             SERVICE                $23.34
                                                                                    ALLOWABLE
                                                                                    FAMILY PLANNING
  35     1005180001354              Yes                                             SERVICE                $23.34
                                                                                    ALLOWABLE
                                                                                    FAMIL Y PLANNING
  36     1005180001561              Yes                                             SERVICE                $50.00




            3   Sample item 34 included two procedures.
                                                                                 Page 3 of4


                                        PROCEDURE                  UNABLE
                                            NOT                      TO         IDENTIFIED
                           QUALIFY AS   RELATED TO   INADEQUATE   PROVIDE     SERVICE BASED    AMOUNT
SAMPLE                      FAMILY        FAMILY      INFORMED    MEDICAL    UPON ADMITTING      OF
 ITEM      CMS64 1 ICN 2   PLANNING?     PLANNING      CONSENT    RECORDS       DIAGNOSIS       CLAIM
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  37     1005180001576        Yes                                           SERVICE               $36.35
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  38     1005180001582        Yes                                           SERVICE              $50.00
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  39     1005180001589        Yes                                           SERVICE               $50.00
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  40     1005180001590        Yes                                           SERVICE               $24.04
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  41     1005180001592        Yes                                           SERVICE              $465.54
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  42     1005180001594        Yes                                           SERVICE               $24.04
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  43     1005180001595        Yes                                           SERVICE              $465.54
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  44     5905228001091        Yes                                           SERVICE               $31.47
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  45     1005180001712        Yes                                           SERVICE               $46.68
                                                                            FEMALE GENITAL
  46     5205242000007         No           X                               SYMPTOMS             $187.66
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  47     1005181000543        Yes                                           SERVICE               $31. 70
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  48     1005181000555        Yes                                           SERVICE               $31. 70
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  49     1005181000557        Yes                                           SERVICE               $31.70
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  50     1005181001048        Yes                                           SERVICE               $52.80
                                                                            ROUTINE
  51     1005181002283         No           X                               GYNECOLOGICAL         $17.00
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  52     1005181002340        Yes                                           SERVICE               $47.55
  53     5205242000010        No            X                               HEMATURIA            $102.36
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  54     1005182001031        Yes                                           SERVICE               $67.86
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  55     1005182001307        Yes                                           SERVICE               $36.00
                                                                                  Page 4 of4


                                        PROCEDURE                  UNABLE
                                            NOT                      TO          IDENTIFIED
                           QUALIFY AS   RELATED TO   INADEQUATE   PROVIDE      SERVICE BASED    AMOUNT
SAMPLE                      FAMILY        FAMILY      INFORMED    MEDICAL    UPON ADMITTING       OF
 ITEM      CMS64 1 1CN 2   PLANNING?     PLANNING      CONSENT    RECORDS        DIAGNOSIS       CLAIM
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  56     1005182001322        Yes                                           SERVICE                $40.00
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  57     1005186001089        Yes                                           SERVICE                $82.44
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  58     1005186001550        Yes                                           SERVICE                $40.00
                                                                            ALLOWABLE
                                                                            F AMIL Y PLANNING
  59     1005186001746        Yes                                           SERVICE                $20.00
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  60     1005186001780        Yes                                           SERVICE                $67.86
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  61     1005187001681        Yes                                           SERVICE                $69.80
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  62     1005187001683        Yes                                           SERVICE                $81.58
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  63     1005188000395        Yes                                           SERVICE                $40.00
                                                                            ACUTE
  64     5205242000011         No           X                               APPENDICITIS          $170.60
                                                                            ABSCESS OF
  65     5205242000012         No           X                               APPENDIX              $187.66
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  66     1005188000545        Yes                                           SERVICE                $52.80
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  67     1005188000848        Yes                                           SERVICE               $431.09
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  68     1005188000938        Yes                                           SERVICE                $74.47
                                                                            ALLOWABLE
                                                                            FAMIL Y PLANNING
  69     1005188001457        Yes                                           SERVICE               $378.58
                                                                            ALLOWABLE
                                                                            FAMILY PLANNING
  70     1005 1880020 II      Yes                                           SERVICE                $76.84
                                    Page 1 of 2


APPENDIX E: STATE AGENCY COMMENTS
Page 2 of 2
